  Office of Inspector General




INSPECTOR GENERAL REVIEW OF FISCAL
 YEAR 2012 DRUG CONTROL FUNDS AND
 PERFORMANCE SUMMARY REPORTING
   National Highway Traffic Safety Administration

            Report Number: FI-2013-039
           Date Issued: February 1, 2013
U.S. Department of                                            Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

February 1, 2013

Ms. U. Jane Sanville
Acting Associate Director, Office of Performance and Budget
Office of National Drug Control Policy
Washington, DC 20503

Dear Ms. Sanville:

This report presents the results of our independent review of the U.S. Department
of Transportation, National Highway Traffic Safety Administration’s (NHTSA)
fiscal year 2012 Drug Control Obligation Summary and Performance Summary
reports to the Office of National Drug Control Policy (ONDCP). Both reports are
dated January 30, 2013. The reports and our review are required by 21 U.S.C.
§1704 (d) and ONDCP’s Circular, Annual Accounting and Authentication of Drug
Control Funds and Related Performance, of May 2007 (Circular).

The Circular states that when drug-related obligations are less than $50 million
and a detailed accounting would constitute an unreasonable burden, agencies are
permitted to submit an alternative report. Because NHTSA’s fiscal year 2012
drug-related obligations were less than $50 million, NHTSA submitted an
alternative report. In our attestation review, we (1) assessed whether providing a
detailed accounting of funds expended on National Drug Control Program
activities would constitute an unreasonable burden, and (2) reviewed NHTSA’s
reports and related management assertions to determine the reliability of those
assertions in compliance with the Circular, in all material respects. We conducted
our review in accordance with generally accepted Government auditing standards
for attestation engagements. However, a review is substantially more limited in
scope than an examination, which expresses an opinion on the accuracy of
NHTSA’s Drug Control Obligation Summary and Performance Summary reports.
Because we conducted an attestation review, we do not express such an opinion.

Drug Control Obligations Summary

We performed review procedures on the accompanying report (Enclosure 1),
NHTSA’s fiscal year 2012 Drug Control Obligation Summary, based upon criteria
specified in the Circular. Our work was limited to inquiries and analytical

Report Number FI-2013-039
                                                                                  2


procedures appropriate for an attestation review. Specifically, we tested selected
accounting internal control procedures to ensure drug control funds were properly
identified in the accounting system. We traced $2.6 million of NHTSA’s reported
$2.7 million in drug control obligations to the Department’s accounting system
and verified that they were supported by contracts.

Because NHTSA is reporting an amount in drug control obligations—
approximately $2.7 million—which is below the Circular’s $50 million threshold
for full reporting, we believe that full compliance with this Circular would
constitute an unreasonable reporting burden.

Performance Reporting Summary and Assertions

NHTSA’s fiscal year 2012 performance target was to develop and pilot test an
online version of the Advanced Roadside Impaired Driving Enforcement Training
(ARIDE) course. NHTSA indicated that it had designed the training course, and
that in the Fall of 2012, over 100 officers from five law enforcement agencies pilot
tested it.

We performed review procedures on the accompanying report (Enclosure 2),
NHTSA’s fiscal year 2012 Performance Summary Report, and management’s
assertions. Our review processes were limited to inquiries and analytical
procedures appropriate for an attestation review based upon the criteria specified
in the Circular. Specifically, we reviewed NHTSA’s internal control procedures
for performance measures, to gain an understanding of how the measures were
developed.

During our review, no information came to our attention that the accompanying
NHTSA fiscal year 2012 Drug Control Obligation Summary and Performance
Summary reports were not presented in conformity with the ONDCP Circular.

Sincerely,




Louis C. King
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure(s)

cc: DOT Audit Liaison, M-1
    NHTSA Audit Liaison, NPO-310

Report Number FI-2013-039
U.S. Deportment                                                           1200 New Jersey Avenue, SE
of Transportation                                                         Wash ington. DC 20590

National Highway
Traffic Safety
Administration



                                                                       JAN 3 0 2013
Mr. Jon E. Rice
Associate Director for Performance and Budget
Office ofNational Drug Control Policy
Washington, DC 20503

Dear Mr. Rice:

In accordance with the Office ofNational Drug Control Policy Circular: Drug Control
Accounting, issued May 1, 2007, the National Highway Traffic Safety Administration's
(NHTSA) Fiscal Year (FY) 2012 Drug Control Obligation Summary is enclosed. NHTSA's
obligations for drug-related activities fall below the reporting threshold of $50 million; therefore,
only a limited report is required to satisfy the statutory requirement.

Please note that at the start ofFY 2012, NHTSA was funded by a Continuing Resolution that
provided funding under our previous authorization: Safe, Accountable, Flexible, Efficient
Transportation Equity Act: A Legacy for Users (SAFETEA-LU). On July 9, 2012, a new
authorization bill was signed by the President: Moving Ahead for Progress in the 21st Century
Act (MAP-21). As a result, some ofthe funding available under SAFETEA-LU was no longer
available under MAP-21. See the enclosed Resource Table Summary that reflects this reduction.
However, FY 2013 is based on the annualized FY 2012 funding level provided by
Public Law 112-175, the Continuing Appropriations Act, 2013 (which includes the .612-percent
increase in Section 101 (c)) .

I hope this information is helpful. If you need further assistance, please contact
Ms. Melanie O'Donnell at (202) 366-0689.

                                                      Sincerely yours ,




                                                      Senior Associate Administrator
                                                      Policy and Operations

Enclosure
          DEPARTMENT OF TRANSPORTATION
               National Highway Traffic Safety Administration




Drug Resources Personnel Summary
 Total FTEs (direct only)                              2                 2                   2

Drug Resources as a Percent of Budget
 Total Agency Budget                           $799.974           $804.870           $855.000
 Drug Resources Percentage                       0.34%              0.19%              0.21%



*FY 2013 is based on the annualized FY 2012 funding level provided by P.L. 112-175, the
Continuing Appropriations Act, 2013 (which includes the .612% increase in section 101(c)).

**Based on the Moving Ahead for Progress in the 21st Century (MAP-21) authorization, which
takes effect once the appropriation bills are passed for FY 2013 and FY 2014. MAP-21 does
not reflect the $I .2M that had been authorized under section 2013(f) ofSAFETEA-LU. While
there is no direct authorization for drug impaired driving research in MAP-21, the Highway
Safety Research program anticipates an additional $750K funding level for drug impaired
driving research out of its core budget to conduct research and evaluation.

Note: FY 2012 includes $1.2M dedicated to drug impaired driving research and approximately
$1.488M to support the agency's drug impaired driving program.
U.S. 	Deportment                                                      1200 New Jersey Avenue, SE
of Transportation                                                     Washington . DC 20590

National Highway
Traffic Safety
Administration
                                     JAN 3 0 2013



Mr. Jon E. Rice 

Associate Director for Performance and Budget 

Office ofNational Drug Control Policy 

Washington, DC 20503 


Dear Mr. Rice:

In accordance with the Office ofNational Drug Control Policy Circular: Drug Control
Accounting issued May 1, 2007, the National Highway Traffic Safety Administration's
(NHTSA) Fiscal Year 2012 Performance Summary Report is enclosed. As specified by the
Circular, the Agency selected a performance measure for 2007 to assess its success in reducing
drug impaired driving, followed by complementary measures in 2008 through 2011. These
measures track the progress of critical steps toward the development of a reliable and accurate
measure of the drug impaired driving problem by increasing the Agency's understanding of the
extent of drug use among drivers, and the role of drugs in crash causation. These performance
measures are:

    1. 	 Select representative survey sites and secure local cooperation as part of a National
         Roadside survey of Alcohol and Drugged Driving (FY 2007).
    2. 	 Collect and analyze oral fluids and blood samples as part of a National roadside Survey
         of Alcohol and Drugged Driving (FY 2008).
    3. 	 Develop and recommend methods for detecting the presence of major illegal drugs in
         drivers as part of a Study to Identify Methods and Technologies to Measure Drug
         Presence Amongst Drivers (FY 2009).
    4. 	 Complete study design and procedures for a landmark Case Control Study of Crash Risk
         of Drug-Impaired Drivers (FY 2010).
    5. 	 Collect data from 1250 crashes for the Case Control Study of the Crash Risk of Drug­
         Impaired Drivers (FY 2011 ).
    6. 	 Develop and pilot test an online version of the Advanced Roadside Impaired Driving
         Enforcement (ARIDE) training program (FY 2012).

ASSERTIONS

    1. 	 Performance reporting system is appropriate and applied: Performance information
         for the first and second measures relies on data captured through the execution of the
         National Roadside Survey of Alcohol and Drugged Driving. Similarly, the performance
         information for the third measure was based on a study to identify methods and
       Page 2 

       Mr. Jon E. Rice 


        technologies to measure drug presence. The measures for 201 0 and 2011 are based on a
        Case Control Study ofthe Crash Risk of Drug-Impaired Drivers. Each Study has data
        collection and reporting requirements specified in contract language with the firm
        conducting the research.
   2. 	 Explanations for not meeting performance targets are reasonable: Target met.
   3. 	 Methodology to establish performance targets is reasonable and applied: Data
        collection for the National Roadside Survey of Alcohol and Drugged Driving was based
        on a probabilistic design, using traffic volume and demographic variables to ensure a
        statistically representative sample. Details ofthe methodology and findings are included
        in the Research Note (DOT HS 811 175) "Results of the 2007 National Roadside Survey
        of Alcohol and Drug Use by Drivers". Methodology for the 2010 and 2011performance
        measures is based on records and documentation of successful achievement of the study
        objectives.
   4. 	 Adequate performance measure exist for all significant drug control activities: The
        measures used to describe the Agency's drug impaired driving program performance
        adequately reflect key steps toward the completion of necessary studies to increase
        general knowledge of the drugged driving problem. These measures provide a
        meaningful assessment of progress toward the development of reliable and accurate
        measures of the drugged driving problem in the United States.

I hope this information is helpful. If you need further assistance, please contact
Ms . Melanie O'Donnell at (202) 366-0689.




                                                       re o
                                                                   M
                                                                . Walter
                                                      Seni Associate Administrator
                                                      Policy and Operations

Enclosures
              National Highway Traffic Safety Administration 

                     Drug-Impaired Driving Program 


                         Performance Summary Report 

                               Fiscal Year 2012 


(1)    Performance Measures

NHTSA can contribute to the National Drug Control Strategy by reducing the prevalence
of drug-impaired drivers on the Nation's roadways. However, given the current state of
knowledge, meaningful measures of the drug impaired driving problem are not available.
To chart progress toward development of a valid measure of this problem, NHTSA
developed performance measures for FY 201 0 to FY 2013. We are now proposing a new
measure for FY 2014. The FY 2010 National Drug Control Strategy called for efforts to
Collect Further Data on Drugged Driving and for increased Training to Law
Enforcement on Identifying Drugged Drivers. The new measure is designed to assess
Agency progress in supporting the national strategy: increasing training for law
enforcement and understanding of the extent of drug use among drivers and the role of
drugs in crash causation.

These measures reflect critical milestones in the development of improved methods to
train law enforcement in detecting drug-impaired drivers and in developing valid and
reliable performance measures of the drug impaired driving problem. Additional
milestones will be identified to assess progress in future years.

The National Highway Traffic Safety Administration (NHTSA) will use the following
measures to assess progress of the Drug-Impaired Driving Program.

• 	 Develop and Pilot Test an On-Line version ofthe Advanced Roadside Impaired
    Driving Enforcement (ARIDE) Training and Delivery (FY 2012).

       The 2010 National Drug Control Strategy directed NHTSA to support efforts to
       increase the availability of training for law enforcement officers to better enable
       them to recognize drivers potentially impaired by drugs other than alcohol. In
       response, NHTSA agreed to develop and make available an online version of the
       Advanced Roadside Impaired Driving Enforcement Training program. Having
       this training available on-line, for individual officer use, is expected to greatly
       increase the number of officers who complete this course.

• 	 Complete data analysis, prepare and release a final report on a Case Control Study
    ofthe Crash Risk ofDrug-Impaired Driving (FY 2013).

       This land-mark study was designed to conduct in-depth investigations of
       approximately 2,500 police-reported crashes of all severities. For each crash
       investigated, similar information will be collected for non-crash control cases
       (involving drivers driving at the same locations, day of week, time of day,
       traveling in the same direction, etc.). Analysis of drug use by crash involved and
       non-crash involved drivers will make it possible to estimate the extent to which
       drug use increases the risk of crash involvement. This information will be
       invaluable in helping to support strong laws targeting drug-impaired driving and
       efforts to reduce the harm caused by drug use by drivers. Together with
       information from the recently-completed Roadside Survey of Drug and Alcohol
       Use by Drivers , evidence from this study on the association of drug use and crash
       risk will be an essential part of efforts to develop effective countermeasures .

• 	 Complete data analysis, prepare and release a final report on the National Roadside
    Survey ofAlcohol and Drug Use by Drivers (FY 2014).

       This study will be the second nationally representative survey of drug use by
       drivers (and the fifth survey of alcohol use by drivers). It will provide trend data
       for drug use by drivers when compared to the 2007 National Roadside Survey and
       almost 40 years oftrend data in alcohol use by drivers (using the 1974, 1986,
       1996, 2007, and 2013 surveys). This large-scale survey will collect alcohol and
       drug use data from over 7,500 passenger vehicle and motorcycle operators
       stopped while driving at some 300 locations around the country. Through a
       stratified sampling plan it will produce reliable national estimates of alcohol and
       drug use. When compared to the 2007 National Roadside Survey this new survey
       will provide an indication of whether there has been change in drug use over the
       past six years. It will also show whether the previously observed decline in
       alcohol use by drivers has continued .

(2)    Prior Years Performance Targets and Results

Prior performance targets for FY 2007 and FY 2008 were fully achieved. In FY 2007,
300 survey sites were identified for the Roadside Survey of Alcohol and Drug Use by
Drivers. In FY 2008 , over 9,000 drivers were sampled in locations across the country for
the Roadside Survey study.

The FY 2009 target was not achieved due to a change in research strategy. An expert
group was convened during 2009 to develop and recommend methods for detecting the
presence of major illegal drugs in drivers. The expert group concluded that such
technology was not feasible for roadside use in the near future. With this information,
the research effort was re-directed to developing methods for identifying drugs that
impair driving.

In FY 2010, we completed the Case Control Study of Crash Risk of Drug-Impaired
Driving study design and planning. Data collection was completed as anticipated in
September 2011. Response teams involving an on duty police officer and research team
member are being fielded to respond to crashes 24 hours a day , seven days as week. The
officer on the team handles the crash, while the research member collects breath, oral
fluid and blood samples from the crash-involved driver. One week later, at the same time
and location, the team stops motorists traveling in the same direction not involved in a
crash to collect the same data.

In FY 2011, we concluded the majority ofthe onsite data collection, exceeding the goal
of collecting data from 2,500 crash involved drivers and 5,000 control drivers.

In FY 20 12, we were successful in developing and pilot testing an online version of the
Advanced Roadside Impaired Driving Enforcement (ARIDE) Training program. The
online version was developed and tested in several sites.

Selected Measures of Performance             FY 2008 Target           FY 2008 Achieved
Roadside Survey of Alcohol
and Drug Use Among Drivers
Collect and analyze oral fluids and          7,500 drivers            Over 9,000 drivers
blood samples from randomly selected
drivers in at least 300 locations across
the U.S.

Selected Measures of Performance        FY 2009 Target                FY 2009 Achieved
Study to Identify Methods and
Technologies to Measure Drug Presence
Develop and recommend methods for       Detection methods             Technology not
detecting the presence of major illegal for at least 5 drugs          currently available.
drugs in drivers

Selected Measures of Performance             FY 2010 Target           FY 201 0 Achieved
Case Control Study of the Crash
Risk of Drug-Impaired Drivers                Develop study design Study design
Complete study planning                      and procedures       completed and
                                                                  Implemented

Selected Measures of Performance             FY 2011 Target           FY 2011 Achieved
Case Control Study of the Crash
Risk of Drug-Impaired Drivers                 Collect data from      Data collected on
Complete 50 percent of data collection        1250 crashes           over 1,250 crashes
                                                                     and 2,500 control
                                                                     drivers
(3)    Current Performance Targets

Selected Measures of Performance             FY 2012 Target           FY 2012 Achieved
Advanced Roadside Impaired
Driving Enforcement Training                 Complete design         Design completed and
(ARID E)                                     and pilot testing of    course pilot tested by
Develop and Pilot Test an Online             of an on-line version   over 100 officers
version of the ARIDE training course         ARIDE                   from five law
to facilitate distance learning                                      enforcement agencies
                                                                     in the Fall of2012
Selected Measures of Performance            FY 2013 Target          FY 2013 Achieved
Case Control Study of the Crash
Risk of Drug-Impaired Drivers               Complete data
Complete drug assays (blood and             analysis, risk
oral fluids), data analysis, and report     estimation, and
preparation                                 write report

Selected Measures of Performance            FY 2014 Target          FY 2014 Achieved
2014 National Roadside Survey
of Alcohol and Drug Use by Drivers          Complete data
Conduct roadsides survey, collect           collection at 300
breath, oral fluids and blood samples,      locations, analyze
analyze data and prepare report             data, prepare report

(4)     Quality of Performance Data

Data collection for the National Roadside Survey of Alcohol and Drugged Driving was
based on a probabilistic design, using traffic volume and demographic variables to ensure
a statistically representative sample. Details of the methodology and findings are
included in the Research Note (DOT HS 811 175) "Results ofthe 2007 National
Roadside Survey of Alcohol and Drug Use by Drivers."

Methodology for the 2010,2011,2012 and 2013 performance measures is based on
records and documentation of successful achievement of study objectives. The
established measures provide a meaningful assessment of progress toward the
development of reliable and accurate measures ofthe drugged driving problem in the
United States.
